         Office of Inspector General




September 6, 2005

JAMES L. LARKIN
SENIOR PLANT MANAGER, SAN FRANCISCO DISTRICT

SUBJECT:      Audit Report – Efficiency of the Airmail Records Unit at the
              San Francisco International Service Center
              (Report Number NO-AR-05-012)

This report presents the results of our audit of the Airmail Records Unit (AMRU) at
the San Francisco, California, International Service Center (ISC) located in the
Pacific Area (Project Number 05YG017NO000). Our objective was to assess the
efficiency of operations at the San Francisco AMRU. This report is the third in a
series of site reports on the efficiency of AMRUs. The managing director,
International Network Operations, requested this audit, which we conducted in
cooperation with the Pacific Area manager of Operations Support. At the conclusion
of our site reviews, we will issue a global report addressing common issues.

The San Francisco AMRU could improve operational efficiency. Specifically, the
San Francisco AMRU processed fewer records per workhour than the targeted
productivity rate, misaligned some workhours with workload, and performed extra
work because plant operations personnel sorted mail improperly. The
San Francisco AMRU could begin to improve operational efficiency by reducing
7,757 workhours. This reduction could produce a cost avoidance of approximately
$2.6 million based on labor savings over a 10-year period. These funds represent
funds put to better use for the Postal Service and will be reported as such in our
Semiannual Report to Congress. In addition, the Postal Service manually
maintained records and had employees perform some unnecessary work. We will
address the latter issues in our global report.

We made three recommendations in this report. Management agreed with our
finding, recommendations, and monetary impact and has initiatives in progress,
completed, or planned addressing the issues in this report. Management’s
comments and our evaluation of these comments are included in the report.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Robert J. Batta, Director, Network Operations – Processing, or me at
(703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Alfred Iniguez
    Michael J. Nappi
    Kerry L. Wolny
    Scott Tucker
    Steven R. Phelps
Efficiency of the Airmail Records Unit at the                NO-AR-05-012
 San Francisco International Service Center



                                    TABLE OF CONTENTS

 Executive Summary                                                  i

 Part I

 Introduction                                                       1

     Background                                                     1
     Objective, Scope, and Methodology                              1
     Prior Audit Coverage                                           2

 Part II

 Audit Results                                                      4

     Assessment of Operational Efficiency                          4
     Recommendations                                               9
     Management’s Comments                                        10
     Evaluation of Management’s Comments                          10

 Appendix A. Cost Avoidance at the AMRU, San Francisco ISC        11
             (Funds Put to Better Use)

 Appendix B. Management’s Comments                                12
Efficiency of the Airmail Records Unit at the                                                   NO-AR-05-012
 San Francisco International Service Center


                                     EXECUTIVE SUMMARY
    Introduction                 We conducted a review of the Airmail Records Unit (AMRU)
                                 at the San Francisco, California, International Service Center
                                 (ISC) located in the Pacific Area. Our objective was to
                                 assess the efficiency of operations at the San Francisco
                                 AMRU. The managing director, International Network
                                 Operations, requested this audit, which we conducted in
                                 cooperation with the Pacific Area manager of Operations
                                 Support and the senior plant manager, San Francisco
                                 District.

                                 This is our third1 in a series of site reports on the efficiency of
                                 AMRUs. When we complete these site reviews, we will
                                 issue a global report addressing common issues.

    Results in Brief             The San Francisco AMRU was not operating efficiently.
                                 Specifically, the San Francisco AMRU:

                                      •   Processed fewer records per workhour than the
                                          targeted productivity rate.

                                      •   Misaligned some workhours with workload.

                                      •   Performed extra work because plant operations
                                          personnel sorted mail improperly.

                                      •   Manually maintained and retrieved records.

                                      •   Performed some unnecessary work.

                                 Title 39, United States Code, Chapter 4, Section 403, states,
                                 “The Postal Service shall plan, develop, promote, and
                                 provide adequate and efficient postal services. . . .”

                                 These conditions occurred because Postal Service
                                 managers had not evaluated operational efficiency,
                                 extensively analyzed operations, or examined and updated
                                 procedures.




1
 The Office of Inspector General (OIG) conducted a self-initiated audit of the New York ISC AMRU and issued a
report on September 24, 2004. The OIG conducted a second self-initiated audit of the Los Angeles ISC AMRU and
issued a report on April 28, 2005.

                                                      i
Efficiency of the Airmail Records Unit at the                                       NO-AR-05-012
 San Francisco International Service Center




                                 We concluded that the Postal Service could begin to
                                 improve operational efficiency by reducing 7,757 AMRU
                                 workhours, periodically evaluating operations, and training
                                 plant operations personnel in proper mail sortation. The
                                 workhour reduction could produce a cost avoidance of
                                 approximately $2.6 million based on labor savings over a
                                 10-year period. These funds represent funds put to better
                                 use for the Postal Service, and we will report them as such
                                 in our Semiannual Report to Congress.

                                 The Postal Service could also improve efficiency by using
                                 available technologies and updating policies and
                                 procedures. We will address the latter two issues in our
                                 global report.

                                 During the audit, Postal Service management took
                                 immediate action to correct some issues. They also agreed
                                 to reduce workhours and provided us with an action plan to
                                 correct the remaining issues.

 Summary of                      We recommended the senior plant manager, San Francisco
 Recommendations                 District, reduce 7,757 AMRU workhours, periodically
                                 evaluate operations, and provide additional training to plant
                                 operations personnel in the proper sortation of mail.

 Summary of                      Management agreed with our finding, recommendations,
 Management’s                    and associated monetary impact. They agreed to reduce
 Comments                        workhours by 7,757 over a 3-year period. However, they
                                 believe they can achieve an even higher reduction of
                                 8,320 workhours over the same period. They also agreed to
                                 periodically evaluate operational efficiency and provide
                                 additional training to plant operations personnel in the proper
                                 sortation of mail. Management’s comments, in their entirety,
                                 are included in Appendix B of the report.

 Overall Evaluation              Management’s comments are responsive and proactive in
 of Management’s                 the implementation of our recommendations. Management’s
 Comments                        actions taken or planned should correct the issues identified
                                 in the report.




                                                 ii
Efficiency of the Airmail Records Unit at                                                                   NO-AR-05-012
 San Francisco International Service Center


                                             INTRODUCTION
    Background                         When the Postal Service established the International
                                       Service Centers (ISC) Network in 1996, it absorbed the
                                       operations of the Airmail Records Units (AMRUs),2 which
                                       existed as part of the international exchange offices3
                                       before the creation of the ISC Network.

                                       AMRUs handle accounting records involving international
                                       mail for the international exchange offices. These units’
                                       main functions are to communicate with foreign postal
                                       administrations and reconcile incoming international mail
                                       records. The AMRUs transmit some of the information
                                       they maintain to the International Accounting Branch in
                                       St. Louis, Missouri, for processing and payment to
                                       transportation carriers and foreign postal administrations.

                                       International Network Operations has functional
                                       responsibility for AMRUs. AMRUs have 94 dedicated
                                       full-time employees located in Los Angeles, California;
                                       Chicago, Illinois; San Francisco, California; Dallas, Texas;
                                       Honolulu, Hawaii; Jamaica, New York; Jersey City,
                                       New Jersey; Miami, Florida; and San Juan, Puerto Rico.
                                       The San Francisco AMRU reports to the manager,
                                       Transportation and Networks, and employs an acting
                                       supervisor and ten full-time clerks.

    Objective, Scope,                  The audit assessed the efficiency of operations at the
    and Methodology                    AMRU at the San Francisco ISC. This is our third4 in a
                                       series of reports on AMRU efficiency. The managing
                                       director, International Network Operations, requested this
                                       audit, which we conducted in cooperation with the Pacific
                                       Area manager of Operations Support and the senior plant
                                       manager, San Francisco District.

                                       To assess the efficiency of the San Francisco AMRU, we
                                       observed operations at the unit, analyzed volumes of




2
  AMRUs are also referred to as international records units.
3
  An international exchange office is a post office, airport mail center, or facility authorized to exchange international
mail and military mail (both air and surface) with another country.
4
  The Office of Inspector General (OIG) conducted a self-initiated audit of the New York ISC AMRU and issued a
report on September 24, 2004, and conducted a self-initiated audit of the Los Angeles ISC AMRU and issued a
report on April 28, 2005.



                                                            1
Efficiency of the Airmail Records Unit at                                                           NO-AR-05-012
 San Francisco International Service Center



                                    records processed and associated workhours, reviewed
                                    policies and procedures, interviewed Postal Service
                                    employees, and evaluated employee efficiency.

                                    Through observations, interviews, and prior audit work, the
                                    OIG established a productivity rate of 24 records per
                                    workhour.5 Postal Service management agreed with this
                                    targeted productivity rate.

                                    We also analyzed international AMRU weekly reports
                                    issued from October 25, 2003, through October 22, 2004,
                                    which the AMRU prepared and submitted to International
                                    Network Operations at headquarters. We were unable to
                                    trace data to the source documents because it is a manual
                                    reporting system involving thousands of hard-copy
                                    records. Thus, we used records processed and hours in
                                    aggregate to determine the unit’s productivity, which we
                                    compared to the target rate.

                                    We also analyzed data from the Web Enterprise
                                    Information System. We did not test the validity of controls
                                    over these systems or data accuracy.

                                    We conducted this audit from January through
                                    September 2005 in accordance with generally accepted
                                    government auditing standards and included such tests of
                                    internal controls as were considered necessary under the
                                    circumstances. We discussed our observations and
                                    conclusions with management officials and included their
                                    comments where appropriate.

    Prior Audit                     We have issued two prior audit reports on the efficiency of
    Coverage                        AMRUs.

                                    Efficiency of the Airmail Records Unit at the New York
                                    International Service Center (Report Number NO-AR-04-
                                    011, dated September 24, 2004). We recommended
                                    Postal Service management reduce workhours by
                                    30,000 to improve the efficiency of operations and
                                    consider possible outsourcing. Postal Service
                                    management agreed with our recommendations.

5
 The methodology for determining target productivity used in this report matched the one used in the New York ISC
AMRU review, which more closely met management’s expectations for productivity.



                                                       2
Efficiency of the Airmail Records Unit at                                          NO-AR-05-012
 San Francisco International Service Center




                                  Efficiency of the Airmail Records Unit at the Los Angeles
                                  International Service Center (Report Number NO-AR-05-
                                  010, dated April 28, 2005). We recommended Postal
                                  Service management reduce workhours by 5,450 to
                                  improve the efficiency of operations, periodically evaluate
                                  operations, and train plant operations personnel in proper
                                  mail sortation. Postal Service management agreed with
                                  our recommendations.




                                                 3
Efficiency of the Airmail Records Unit at                                           NO-AR-05-012
 San Francisco International Service Center



                                       AUDIT RESULTS
 Assessment of                The San Francisco AMRU was not operating efficiently.
 Operational                  Specifically, the San Francisco AMRU:
 Efficiency
                                  •   Processed fewer records per workhour than the
                                      targeted productivity rate.

                                  •   Misaligned some workhours with workload.

                                  •   Performed extra work because plant operations
                                      personnel sorted mail improperly.

                                  •   Manually maintained and retrieved records.

                                  •   Performed some unnecessary work.

                              Title 39, United States Code, Chapter 4, Section 403,
                              states, “The Postal Service shall plan, develop, promote,
                              and provide adequate and efficient postal services. . . .”

                              These conditions occurred because Postal Service
                              managers had not evaluated operational efficiency,
                              extensively analyzed operations, or examined and updated
                              procedures. Consequently, the San Francisco AMRU used
                              more workhours than necessary to process international
                              mail records.

                              As a result, the Postal Service could begin to improve
                              operational efficiency by reducing 7,757 workhours. This
                              reduction could produce a cost avoidance of approximately
                              $2.6 million based on labor savings over a 10-year period.
                              (See Appendix A for details.)

 Records Processed            The San Francisco AMRU processed an average of
                              7.8 records per workhour as compared to the targeted
                              productivity rate of 24 records per workhour. Chart 1 shows
                              the productivity of the San Francisco AMRU compared to
                              the targeted productivity rate. This productivity difference of
                              over 16 records per workhour means the San Francisco
                              AMRU has the opportunity to reduce workhours.




                                                4
Efficiency of the Airmail Records Unit at                                                                                                                                                                                                                                                                                 NO-AR-05-012
 San Francisco International Service Center




                                                                                Chart 1: Productivity of San Francisco AMRU
                         30

                         25
      Records Per Hour




                         20

                         15

                         10

                         5

                         0
                              10/25/2003

                                           11/8/2003
                                                       11/22/2003
                                                                    12/6/2003

                                                                                 12/20/2003
                                                                                              1/3/2004
                                                                                                          1/17/2004

                                                                                                                      1/31/2004
                                                                                                                                  2/14/2004
                                                                                                                                              2/28/2004
                                                                                                                                                          3/13/2004

                                                                                                                                                                      3/27/2004
                                                                                                                                                                                  4/10/2004
                                                                                                                                                                                              4/24/2004
                                                                                                                                                                                                          5/8/2004
                                                                                                                                                                                                                     5/22/2004
                                                                                                                                                                                                                                 6/5/2004

                                                                                                                                                                                                                                            6/19/2004
                                                                                                                                                                                                                                                        7/3/2004
                                                                                                                                                                                                                                                                   7/17/2004

                                                                                                                                                                                                                                                                               7/31/2004
                                                                                                                                                                                                                                                                                           8/14/2004
                                                                                                                                                                                                                                                                                                       8/28/2004
                                                                                                                                                                                                                                                                                                                   9/11/2004
                                                                                                                                                                                                                                                                                                                               9/25/2004
                                                                                                                                                                                                                                                                                                                                           10/9/2004
                                                                                                                                                                  Weeks Beginning

                                                                                                         San Francisco AMRU Records Per Hour                                                                                       Target Productivity Rate



    AMRU Workhours                                                                                       Workhours used for record processing did not always reflect
                                                                                                         changes in the workload. The general trend for the period
                                                                                                         of October 2003 to October 2004 was that workhours
                                                                                                         increased as the number of records processed increased.
                                                                                                         However, for 12 weeks during the review period, workhours
                                                                                                         were misaligned with workload.6 (See Table 1 for examples
                                                                                                         of the misalignment.)

                                                                                                                                        Table 1: Workhours to Records Processed

                                                                                                                                      Week                                                                           Workhours                                                    Records
                                                                                                                                  January 3, 2004                                                                      204                                                         2,345
                                                                                                                                  March 13, 2004                                                                       321                                                         2,294
                                                                                                                                  March 27, 2004                                                                       321                                                         1,508

                                                                                                         To further illustrate, Chart 2 shows the periods in which
                                                                                                         workhour usage does not reasonably track with the number
                                                                                                         of records processed. The arrows in Chart 2 indicate weeks
                                                                                                         with significant misalignment of workhours to workload.
                                                                                                         AMRU personnel should be assigned to other functions
                                                                                                         when record processing workload decreases.

6
 During a six-week time frame from March 13 through April 23, 2004, and in six other weeks during the audit
period, workhours were more than one standard deviation above a workhour-to-records regression line.



                                                                                                                                                                                  5
Efficiency of the Airmail Records Unit at                                                                                                                                                                                                                                                                                                    NO-AR-05-012
 San Francisco International Service Center



                                                                                                                        Chart 2: Workhour Usage
                          5000                                                                                                                                                                                                                                                                                                                           500
                          4500                                                                                                                                                                                                                                                                                                                           450
      Records Processed



                          4000                                                                                                                                                                                                                                                                                                                           400




                                                                                                                                                                                                                                                                                                                                                               Workhours
                          3500                                                                                                                                                                                                                                                                                                                           350
                          3000                                                                                                                                                                                                                                                                                                                           300
                          2500                                                                                                                                                                                                                                                                                                                           250
                          2000                                                                                                                                                                                                                                                                                                                           200
                          1500                                                                                                                                                                                                                                                                                                                           150
                          1000                                                                                                                                                                                                                                                                                                                           100
                           500                                                                                                                                                                                                                                                                                                                           50
                             0                                                                                                                                                                                                                                                                                                                           0
                                 10/25/2003
                                              11/8/2003




                                                                                                                                                            3/13/2004
                                                                                                                                                                        3/27/2004
                                                                                                                                                                                    4/10/2004
                                                                                                                                                                                                4/24/2004
                                                          11/22/2003
                                                                       12/6/2003




                                                                                                            1/17/2004
                                                                                                                        1/31/2004
                                                                                                                                    2/14/2004
                                                                                                                                                2/28/2004
                                                                                    12/20/2003
                                                                                                 1/3/2004




                                                                                                                                                                                                            5/8/2004
                                                                                                                                                                                                                       5/22/2004
                                                                                                                                                                                                                                   6/5/2004
                                                                                                                                                                                                                                              6/19/2004
                                                                                                                                                                                                                                                          7/3/2004
                                                                                                                                                                                                                                                                     7/17/2004
                                                                                                                                                                                                                                                                                 7/31/2004
                                                                                                                                                                                                                                                                                             8/14/2004
                                                                                                                                                                                                                                                                                                         8/28/2004
                                                                                                                                                                                                                                                                                                                     9/11/2004
                                                                                                                                                                                                                                                                                                                                 9/25/2004
                                                                                                                                                                                                                                                                                                                                             10/9/2004
                                                                                   San Francisco AMRU Records Processed                                                                                                            San Francisco AMRU Workhours




    Mail Sortation                                                                                    Plant operations personnel were not always sorting mail
                                                                                                      properly. Our review of Verification Notes7 showed that
                                                                                                      many times, personnel sent mail to the wrong country. For
                                                                                                      example, from October 2003 to October 2004, the
                                                                                                      San Francisco AMRU received over 5,700 Verification
                                                                                                      Notes, or approximately 15 percent of all Verification Notes,
                                                                                                      advising that mail had been incorrectly sent. This resulted
                                                                                                      in additional work for the San Francisco AMRU employees
                                                                                                      who handle and input these records. San Francisco AMRU
                                                                                                      management took immediate action to determine why the
                                                                                                      mail was missent and were working on a standard operating
                                                                                                      procedure during our audit. Training that better emphasizes
                                                                                                      the importance of sorting mail to the correct country could
                                                                                                      greatly reduce or eliminate this workload.

    Manual Records                                                                                    The Postal Service manually maintained and retrieved
                                                                                                      records. The AMRU maintained approximately
                                                                                                      268,000 hard-copy international mail records. The Postal
                                                                                                      Service could minimize paper use and storage by
                                                                                                      exchanging information through Electronic Data
                                                                                                      Interchange.8 Illustration 1 shows the San Francisco
                                                                                                      AMRU’s manual filing system.




7
  The Postal Service and foreign postal administrations use Verification Notes, formerly known as Bulletin of
Verifications, to communicate irregularities in the preparation, dispatch, and receipt of mail.
8
  Electronic Data Interchange is a computer-to-computer exchange of information in a standard format.



                                                                                                                                                                                     6
Efficiency of the Airmail Records Unit at                                          NO-AR-05-012
 San Francisco International Service Center



                                              Illustration 1: San Francisco AMRU
                                                Manual Hard-Copy Filing System.




                              We also observed that the processing of manual records
                              was slow and inefficient. The San Francisco AMRU
                              receives records from plant operations and foreign postal
                              administrations. San Francisco AMRU employees manually
                              count, sort, and categorize records for processing. They
                              perform data entry and file hard-copy records in the unit.
                              They also manually retrieve records from their files to
                              respond to foreign postal administrations by mail concerning
                              actions taken on incoming records. Automating these
                              processes and electronically transmitting responses would
                              be more efficient. Illustration 2 shows the San Francisco
                              AMRU’s manual work environment. We will address these
                              issues in our global report.




                                                 7
Efficiency of the Airmail Records Unit at                                                                 NO-AR-05-012
 San Francisco International Service Center



                                                  Illustration 2: San Francisco AMRU
                                           management could automate work at this unit to reduce
                                                                workhours.




    Extra Work                    We observed that employees were performing unnecessary
                                  work. Our observations showed the following:

                                       •    Employees spent 80 hours a week collecting, sorting,
                                            and filing inbound Express Mail9 manifests to comply
                                            with outdated procedures. These procedures
                                            required AMRU clerks to complete a Missing/
                                            Duplicate Report on Express Mail manifests initiated
                                            by the International Accounting Branch. According to
                                            management at the International Accounting Branch,
                                            this report has not been required for more than
                                            two years.

                                       •    Employees mailed duplicate inbound Express Mail
                                            manifests back to some originating countries. This
                                            occurred because clerks believed they were following
                                            proper procedures. However, Postal Service
                                            guidance does not require this type of service.
                                            AMRU management took action during the OIG audit
                                            to eliminate this practice.




9
 Express Mail is a mail class that provides expedited delivery service. This is the fastest mail service offered.
Express Mail International Service is available between the United States and most other countries.



                                                           8
Efficiency of the Airmail Records Unit at                                                              NO-AR-05-012
 San Francisco International Service Center




                                      •   Employees sent Verification Notes prepared for
                                          foreign postal administrations by registered mail.10
                                          This occurred because clerks believed they were
                                          following proper procedures. Postal Service
                                          guidance does not specify the type of mail service to
                                          use, and registered mail service is not an efficient
                                          manner of handling routine communications. AMRU
                                          management took action during the OIG audit to
                                          eliminate this practice.

                                 These conditions occurred because procedures were
                                 outdated and standard operating procedures were not
                                 current.11

                                 As a result, management used more workhours than
                                 necessary to process international mail records. We will
                                 address the issues of extra work and outdated procedures in
                                 our global report.

 Recommendations                 To improve operating efficiency at the AMRU, we
                                 recommend the senior plant manager, San Francisco
                                 District:

                                      1. Reduce workhours by 7,757, resulting in a cost
                                         savings of approximately $2.6 million over a 10-year
                                         period.

                                      2. Periodically evaluate operational efficiency and
                                         staffing to determine whether further workhour
                                         adjustments are necessary based on workload.

                                      3. Provide additional training to plant operations
                                         personnel in the proper sortation of mail.




10
   Registered mail provides added protection and value by tracking the mailing through delivery. Registered mail is
transferred from one individual to another on appropriate forms and must be signed for by the receiving individual
at the time of transfer.
11
   Two primary guides for AMRU operations are Handbook F-59, International Exchange Office Procedures,
June 1992, and Standard Operating Procedures, January 1995.



                                                         9
Efficiency of the Airmail Records Unit at                                        NO-AR-05-012
 San Francisco International Service Center




 Management’s                 Management agreed with our finding, recommendations,
 Comments                     and monetary impact. They agreed to reduce workhours by
                              7,757 over a 3-year period. However, they believe they can
                              achieve an even higher reduction of 8,320 workhours over
                              the same period with improvements in efficiencies. They
                              also agreed to periodically evaluate operational efficiency
                              and as a result, have already reduced workhours in the
                              AMRU by 4,160 per year. Postal Service management also
                              agreed to provide additional training to plant operations
                              personnel in the proper sortation of mail. Taking a more
                              aggressive approach to this recommendation, they also
                              have established processes in plant operations to monitor
                              mail sortation.

 Evaluation of                Management’s comments are responsive and proactive in
 Management’s                 the implementation of our recommendations.
 Comments                     Management’s actions taken or planned should correct the
                              issues identified in the findings.




                                               10
Efficiency of the Airmail Records Unit at                                       NO-AR-05-012
 San Francisco International Service Center




                                         APPENDIX A

                        COST AVOIDANCE AT THE AMRU,
                             SAN FRANCISCO ISC
                         (FUNDS PUT TO BETTER USE)


                                                      Undiscounted Total
                                                                            Discounted Total
                                       Total          Savings or (Costs)
                                                                           Savings or (Costs)
                                     Workhour           (Ten Years; 3.1
        Employee Category                                                     (Ten Years; 5
                                     Reduction        Percent Escalation
                                                                           Percent Discount
                                                             Rate)
                                                                                  Rate)

   AMRU Clerks (PS-6):
   Yearly reduction of                  7,757             $3,435,988          $2,563,277
   2,585.7 hours average per
   year over three years

Notes

    •    We based workhour reductions on Postal Service management’s plan to
         reduce 7,757 workhours over a 3-year period from FYs 2006 to 2008, based
         on FY 2004 workhour usage.

    •    Using the April 15, 2005, Decision Analysis Report (DAR) “Productive
         Workyear Factor” of 1,746 hours per year for bargaining employees,
         7,757 workhours is equivalent to 4 to 5 employees (4.4).

    •    We calculated cost avoidance using the workhour savings multiplied by the
         escalated labor rate over a 10-year period beginning in FY 2006.

    •    We calculated the net present value using the discount rate of 5 percent over
         a 10-year period. The yearly escalation factor is 3.1 percent (DAR factors
         effective April 15, 2005).

    •    We based labor rates on the Postal Service’s March FY 2005 published rates
         for a PS-6 mail processing clerk in FY 2006 (salary and fringe and
         service-wide costs).

Funds Put to Better Use – Funds that can be used more efficiently by
implementing recommended actions.




                                                 11
Efficiency of the Airmail Records Unit at            NO-AR-05-012
 San Francisco International Service Center


                 APPENDIX B. MANAGEMENT’S COMMENTS




                                              12
Efficiency of the Airmail Records Unit at          NO-AR-05-012
 San Francisco International Service Center




                                              13
Efficiency of the Airmail Records Unit at          NO-AR-05-012
 San Francisco International Service Center




                                              14
Efficiency of the Airmail Records Unit at          NO-AR-05-012
 San Francisco International Service Center




                                              15
